                            DEPARTMENT OF HEALTH &. HUMAN SERVICES                                                                Office of Inspector General


(l"'''C£~'~
 '..
  '..
        ~."'''la                                                                                                                  Washington, D.C. 20201

                                                                            OCT 2 4 2007





                    TO:	                Dr. Julie L. Gerberding, M.D., M.P.H.

                                        Director

                                        Centers for Disease Control and Prevention



                    FROM:	              Daniel R. Levinson~ t. ~

                                        Inspector General



                    SUBJECT: Memorandum Report-Laboratory Preparedness for Pandemic Influenza,

                                        OEI-04-07-00670



                   This memorandum report provides information on laboratory pandemic influenza preparedness
                   as requested in April 2007 by offcials at the Centers for Disease Control and Prevention (CDC).


                   The Office of Inspector General (GIG) sureyed State public health laboratory offcials in June
                   2007 about the extent to which they conducted the eight critical tasks for public health laboratory
                   testing as required by the Pandemic Influenza Guidance Supplement to the 2006 Public Health
                   Emergency Preparedness Cooperative Agreement, Phase II (the Guidance).l

                   All States reported that their public health laboratories performed the first two critical tasks, to
                   conduct year-round influenza testing and to detect and subtype influenza viruses.2 Although not
                   specifically required by the Guidance, all States reported public health laboratory capability to
                   subtype H5 influenza.3 The H5 subtyping test is curently only available to public health
                   laboratories. Consistent with this, most States reported that they have no sentinel laboratory
                   capability to subtype H5 influenza.4 However, this capability may be necessary to meet
                   increased testing needs during an H5 influenza pandemic.

                   All States reported that their public health laboratories did not perform at least one of the six
                   remaining critical tasks. For the tasks involving both public health and clinical laboratories,


                   i The eight critical tasks are outlined in Attachment B u~der Pandemic Influenza Preparedness Goal 3: Detect and Report Target
                   Capabilty 38. The Guidance is available online at httD://www.bt.cdc.gOv/Dlanning/coODagreement/Ddf/Dhase2-Danflu­
                   guidance.Ddf. Accessed August 27,2007.

                   2 There are different types of influenza viruses (e.g., HI, H3, H5). Subtyping refers to the ability to distinguish one type of

                   influenza from another.

                   3 The H5 strain of influenza normally infects birds, but it has the potential to cause a human pandemic.

                   4 Sentinel laboratories conduct initial screenings of biological specimens and refer suspicious specimens to public health

                   laboratories.
Page 2 – Dr. Julie L. Gerberding, M.D., M.P.H.


States reported performing the required activities for public health laboratories to a greater extent
than for clinical laboratories.5

BACKGROUND

Funding for Pandemic Influenza Preparedness and Response
In 2005, Congress appropriated $350 million for upgrading State and local capacity to prepare
for and respond to an influenza pandemic. These funds have been awarded by the Department of
Health and Human Services (HHS) in phases.6 In March 2006, CDC awarded $100 million
(Phase I) to 62 jurisdictions to identify gaps in their preparedness based on 60 critical tasks. 7 8
An updated version of these critical tasks is included in Attachment B of the Guidance. As of
July 2006, CDC had awarded an additional $225 million to the same jurisdictions to address
these preparedness gaps (Phase II). CDC plans to award the remaining $25 million through
competitive grants to eligible recipients. Awardees are expected to complete tasks supported by
the Guidance in 3 years, ending in 2009. By 2009, CDC expects that awardees should be fully
prepared to respond to and control an influenza pandemic. 9

In August 2007, the Secretary of HHS announced another $75 million for pandemic influenza
preparedness.10 These grants will supplement funds dedicated to strengthen the ability of the
Nation’s health care community to respond to bioterrorism, infectious diseases, and natural
disasters.

Public Health Laboratory Testing Requirements for Pandemic Influenza Preparedness
The eight required critical tasks for public health laboratory testing as specified by the Phase II
Guidance are to:

    1.	 maintain the ability to test for influenza viruses year-round;

    2.	 perform polymerase chain reaction (PCR) testing for rapid detection and subtyping of
        influenza viruses;

    3.	 electronically exchange specimen-level data among clinical laboratories, the State public
        health laboratory, and CDC;


5 The tasks involving both clinical and public health laboratories are critical tasks 3, 5, 6, and 7.

6 Emergency Supplemental Appropriations Act To Address Hurricanes in the Gulf of Mexico and Pandemic Influenza Act, 2006, 

Pub. L. No. 109-148, Division B, Title II, Chapter 6 (Dec. 30, 2005).

7 These funds supplement the 2006 Public Health Emergency Preparedness Cooperative Agreement. Available online at 


http://www.bt.cdc.gov/planning/coopagreement/pdf/fy06announcement.pdf. Accessed August 27, 2007. 

8 The 62 jurisdictions are the 50 States, the District of Columbia, the cities of Chicago and New York, Los Angeles County,


Puerto Rico, the U.S. Virgin Islands, and the 6 Pacific Basin jurisdictions.

9 The Guidance, page 4, available online at http://www.bt.cdc.gov/planning/coopagreement/pdf/phase2-panflu-guidance.pdf. 


Accessed August 27, 2007. 

10 News Release available online at https://www.hhs.gov/news/press/2007pres/08/pr20070830a.html. Accessed September 3, 


2007.

Page 3 – Dr. Julie L. Gerberding, M.D., M.P.H.


     4.	 institute surveillance for influenza-like illness among laboratory personnel working with
         novel influenza viruses;

     5.	 develop and exercise an operational plan to augment the capacity of public health and
         clinical laboratories to meet the needs of the jurisdiction during an influenza pandemic;

     6.	 assess all public health and clinical laboratory influenza diagnostic testing proficiency
         and adherence to biosafety containment and biomonitoring protocols at least annually;

     7.	 test the knowledge and competency of frontline clinicians and laboratory personnel with
         regard to:

               a.	 protocols for safe specimen collection and testing,
               b.	 the way in which and the person to whom a potential case of novel influenza
                   should be reported, and
               c.	 mechanisms for submitting specimens to referral laboratories; and

     8.	 determine how hospitals and health care systems will use systems and communication
         tools to report information to public health and response partners with an emphasis on
         regional hospital coordination.

Role of Clinical Laboratories in Public Health Preparedness and Response
As of June 2007, there were 210 public health laboratories in the U.S.11 According to the
Association of Public Health Laboratories, disease prevention, control, and surveillance should
collectively represent a core function of State public health laboratories.12 13 However, privately
owned clinical laboratories, which are not under the control of State public health laboratories,
play a key role in States’ ability to perform these activities, especially surveillance.

Clinical laboratories are often the first line of defense in a public health response because they
perform diagnostic tests ordered by physicians and may be the first to identify the causes of
illnesses in communities. However, not all clinical laboratories have the capacity to conduct
initial screenings and refer suspicious specimens to a reference laboratory, usually the State
public health laboratory, to confirm the presence of public health threats. Clinical laboratories
that do have these capabilities are known as sentinel laboratories.14




11 Clinical Laboratory Improvement Amendments (CLIA) Update, Division of Laboratory Services, Centers for Medicare &

Medicaid Services, Laboratories by Type of Facility, June 2007. Available online at 

http://www.cms.hhs.gov/CLIA/downloads/factype.pdf. Accessed September 17, 2007.

12 “Core Functions and Capabilities of State Public Health Laboratories,” p. 6. Available online at 


http://www.cdc.gov/mmwr/preview/mmwrhtml/rr5114a1.htm. Accessed August 29, 2007.

13 Public health surveillance is the ongoing collection, analysis, and interpretation of health data to improve health and safety.

14 Forty-nine States use this definition of sentinel laboratory in the pandemic influenza context.

Page 4 – Dr. Julie L. Gerberding, M.D., M.P.H.


Related Work
OIG is conducting a study of laboratory preparedness for bioterrorism and other public health
emergencies. We expect to issue a final report on those findings in early 2008.

METHODOLOGY

Scope
We surveyed officials in all 50 States and the District of Columbia (hereafter referred to as
States) about the extent to which they conducted the eight critical tasks for public health
laboratory testing as required by the Guidance. Four of these critical tasks require coordination
with clinical laboratories. We also asked the officials about public health and sentinel laboratory
capability to subtype H5 influenza, as well as the type of preparedness exercises conducted by
State public health laboratories (i.e., tabletop or full-scale).

Data Collection
We contacted the Cooperative Agreement coordinators in all States to inform them about our
survey and to request the names of the most appropriate respondents. In most cases, we were
referred to the State laboratory director or the bioterrorism coordinator. We sent an electronic
mail survey to these public health laboratory officials identified by the Cooperative Agreement
coordinator in each State and had a 100-percent response rate.

Data Analysis
We transferred State responses to our survey into an electronic database. Using the database, we
determined the total number of States that reported performing each of the eight critical tasks.
Where appropriate, we determined whether the State conducted an activity for both State public
health and clinical laboratories.

Limitations
We asked State public health laboratory officials the extent to which they conducted the eight
critical tasks for public health laboratory testing as required by the Guidance. However,
responsibility for some of these tasks may fall under another State or non-State entity (e.g., the
Office of Emergency Preparedness and Response or the College of American Pathologists,
respectively). In addition, we did not collect supporting documentation to verify State responses
to our survey, and we did not ask States about the performance measures associated with the
eight critical tasks. Finally, our survey determined the extent to which State public health
laboratories met Guidance requirements to include clinical laboratories in their preparedness
planning. We did not directly survey clinical laboratory officials to determine whether they had
performed pandemic influenza preparedness activities independent of the State public health
laboratories.

This study was conducted in accordance with the “Quality Standards for Inspections” issued by
the President’s Council on Integrity and Efficiency and the Executive Council on Integrity and
Efficiency.
Page 5 – Dr. Julie L. Gerberding, M.D., M.P.H.


RESULTS

Critical task 1: All States reported that they conduct year-round influenza testing
Year-round influenza testing can detect the emergence of influenza viruses outside the normal
influenza season. This early detection may lead to a faster public health response to a potential
pandemic influenza outbreak. All 51 States reported that their public health laboratories conduct
year-round influenza testing.

Critical task 2: All States reported the capability to perform PCR to detect and subtype
influenza, but sentinel laboratory capability to subtype H5 influenza is limited or unknown
The H5 strain of influenza infects birds but does not typically infect humans. However, it has
caused human deaths and has the potential to evolve into a human pandemic strain.

Although not specifically required by the Guidance, all 51 States reported public health
laboratory capability to use PCR to subtype the H5 influenza strain. The H5 subtyping test is
currently only available to public health laboratories. Consistent with this, 44 of 51 States
reported that they have no sentinel laboratories with the capability to perform H5 influenza
subtyping, and 4 States reported that they did not know whether sentinel laboratories in their
State had H5 influenza subtyping capability. However, this capability may be necessary to meet
increased testing needs during an H5 influenza pandemic.

Critical task 3: States reported that they electronically exchange influenza data with CDC
and public health laboratories to a greater extent than with clinical laboratories
Public health officials often rely on patient-level data from clinical laboratories to determine an
appropriate response to a public health event. Similarly, clinical laboratories often rely on State
and national data from public health laboratories and CDC to determine appropriate laboratory
testing.

Almost 90 percent of States (45 of 51) reported exchanging electronic influenza data with CDC.
Similarly, almost 90 percent of States (45 of 51) reported either that they exchanged electronic
influenza data within the State public health laboratory system (24 of the 45 States) or that this
requirement was not applicable (21 of the 45 States). For example, this requirement is not
applicable in a State with only one public health laboratory.

However, only 35 percent of States (18 of 51) reported electronic influenza data exchange
between public health laboratories and clinical laboratories.
Page 6 – Dr. Julie L. Gerberding, M.D., M.P.H.


Table 1 shows the number of States reporting that the State public health laboratories exchanged
electronic influenza data.

                                                             Table 1

                           Number of States Reporting That Public Health
                           Laboratories Electronically Exchanged Influenza Data
                           Entities With Which the Public Yes              Not
                           Health Laboratories                             Applicable
                           Electronically Exchanged
                           Influenza Data
                           CDC                              45              0
                           Other State Public Health        24             21
                           Laboratories
                           Clinical Laboratories            18              0

Critical task 4: Over half of all States reported that they instituted surveillance for
influenza-like illness among laboratory personnel at risk for atypical influenza
Laboratory personnel who conduct influenza testing are at risk of developing illness from
seasonal influenza, as well as atypical influenza present during a pandemic. The earlier illness is
detected, the earlier the State may take action and attempt to contain its spread. Sixty-two
percent of States (32 of 51) reported that they conduct surveillance for influenza-like illnesses
among laboratory personnel at risk of developing atypical influenza.

Critical task 5: States reported that they conduct pandemic influenza preparedness
exercises in public health laboratories to a greater extent than in clinical laboratories
Preparedness exercises present public health personnel hands-on practice of emergency plans
and procedures. Exercises may also identify potential response weaknesses in advance of an
actual event.

Eighty-two percent of States (42 of 51) reported developing operational plans to augment public
health laboratory capacity during an influenza pandemic. Forty-three percent of States (22 of 51)
reported conducting tabletop exercises of their operational plans, and 20 percent of States (10 of
51) reported conducting full-scale exercises.15

In contrast, 55 percent of States (28 of 51) reported developing operational plans for clinical
laboratory capacity. Thirty-one percent of States (16 of 51) reported conducting tabletop
exercises of plans to meet the increased need for clinical laboratory testing capacity during an


15 In a tabletop exercise, participants respond to a simulated emergency without time constraints from an office environment.
Tabletop exercises are intended to evaluate plans and answer questions about coordination and assignments of responsibility. In
a full-scale exercise, participants respond to a simulated emergency under time constraints conditions just as they would in a real-
world event. Full-scale exercises are intended to identify problems that may arise in executing a plan.
Page 7 – Dr. Julie L. Gerberding, M.D., M.P.H.


influenza pandemic, and less than 10 percent of States (5 of 51) reported conducting full-scale
exercises.

Table 2 shows the number of States reporting that they have developed operational plans to
augment laboratory capacity in an influenza pandemic and have tested those plans through
tabletop or full-scale exercises.

                                       Table 2

            Number of States Reporting That They Have Developed and
            Tested Plans To Augment Laboratory Capacity
            Pandemic Influenza Preparedness             Public Health     Clinical
            Activity                                    Laboratory        Laboratory
                                                        Capacity          Capacity
            Developed operational plan                  42                28
            Exercised operational plan – tabletop       22                16
            Exercised operational plan – full-scale     10                 5

Critical task 6: States reported that they conduct annual assessments of influenza-related
practices in public health laboratories to a greater extent than in clinical laboratories
Annual assessments of laboratory practices help to ensure that laboratory personnel are using the
most current practices in responding to an influenza outbreak.

Depending on the laboratory practice, 65 percent to 82 percent of States (33 to 42 States)
reported that the State public health laboratories conduct annual assessments of influenza-related
activities in public health laboratories. However, only 12 percent to 20 percent of States (6 to
10 States) reported that the State public health laboratories conduct the same annual assessments
in clinical laboratories.

Table 3 shows specific influenza-related practices and the corresponding number of States that
reported conducting at least annual assessments in public health and clinical laboratories.

                                       Table 3

       Number of States Reporting That the Public Health Laboratories
       Annually Assess Influenza-Related Practices
       Areas State Public Health Laboratories Assess      Public Health      Clinical
       Annually                                           Laboratory         Laboratory
                                                          Assessments        Assessments
       Influenza diagnostic testing proficiency           42                 10
       Adherence to influenza biosafety containment       42                  7
       Adherence to influenza biomonitoring protocols     33                  6
Page 8 – Dr. Julie L. Gerberding, M.D., M.P.H.


Twenty-one States reported that they do not assess clinical laboratories on the activities specified
in the Guidance because this function is performed by other organizations (e.g., the College of
American Pathologists or the Centers for Medicare & Medicaid Services in its oversight of the
Clinical Laboratory Improvement Act).

Critical task 7: States reported that they conduct tests on pandemic influenza preparedness
activities for frontline laboratory personnel to a greater extent than for frontline clinicians
Frontline clinicians and laboratory personnel who perform diagnostic tests play a significant role
in public health emergency response. They may be the first to identify and trigger a State’s
response to illness in communities.

Depending on the laboratory practice, 53 percent to 73 percent of States (27 to 37 States)
reported that their public health laboratories test frontline laboratory personnel on pandemic
influenza preparedness activities (e.g., protocols for safe specimen collection and testing and
referring potential cases of novel influenza).

Less than 25 percent of States (11 of 51) reported that their public health laboratories test
clinicians on how to submit suspected influenza specimens to a testing laboratory. Even fewer
States (7 of 51) reported that their public health laboratories test clinicians on the person they
should contact when referring a potential case of novel influenza or on protocols for safe
specimen collection or testing.

Table 4 lists specific pandemic influenza preparedness activities, along with the number of States
reporting that their public health laboratories test each activity for frontline laboratory personnel
and clinicians.

                                       Table 4

       Number of States Reporting That the Public Health Laboratories Test
       Influenza Preparedness Activities for Laboratory Personnel and Clinicians
       Preparedness Activity Tested                        Laboratory        Clinician
                                                           Personnel         Testing
                                                           Testing
       Protocols for safe specimen collection              28                 7
       Protocols for safe specimen testing                 32                 7
       How to refer a potential case of novel influenza    27                 8
       Person to contact when referring a potential case   29                 7
       of novel influenza
       How to submit specimens to a referral laboratory    37                11
Page 9 – Dr. Julie L. Gerberding, M.D., M.P.H.


Two States reported that they do not test frontline laboratory personnel or clinicians because they
receive pandemic influenza preparedness testing or training through a third party (e.g., the Health
Resources and Services Administration or the State Office of Epidemiology). In addition, one
State reported that because public health laboratory personnel are not responsible for collecting
specimens or referring potential cases of novel influenza, they are not tested on these tasks.

Critical task 8: Twenty-five percent of States reported that they determine how hospitals
and health care systems would use pandemic influenza communication tools
Accurate communication during a health event enables public health officials to determine the
optimal course of action in responding to an event. States should formalize communication
procedures in advance to avoid confusion and miscommunication during an actual event.

Twenty-five percent of States (13 of 51) reported that their State public health laboratories have
determined how hospitals and health care systems would use pandemic influenza communication
tools to report information to public health and response partners during an event. Of these
13 States, 6 further reported that their public health laboratories have determined how
communication tools would be used for regional hospital coordination.

Twenty-seven percent of States (14 of 51) reported that they have not determined how hospitals
and health care systems would use communication tools because this function is carried out by
other State entities (e.g., the Office of Public Health Emergency Preparedness or the Bureau of
Epidemiology).

CONCLUSION

Pandemic influenza preparedness projects supported by Phase II Guidance funding should be
completed in 3 years, ending in 2009. Most State public health laboratories reported that they
have already performed some of the requirements specified by the Guidance. For example, all
States reported that their public health laboratories performed the requirement for year-round
influenza testing. In addition, over half of States reported instituting surveillance for influenza-
like illness among laboratory personnel. Although not specifically required by the Guidance, all
States also reported public health laboratory capability to subtype H5 influenza, but sentinel
laboratory capability to subtype H5 influenza is limited or unknown. However, this capability
may be necessary to meet increased testing needs during an H5 influenza pandemic.

Our survey results demonstrate that opportunities exist to improve public health laboratory
coordination with clinical laboratories. For the critical tasks involving both public health and
clinical laboratories, States reported performing the required activities for public health
laboratories to a greater extent than for clinical laboratories.

Clinical laboratories will likely be among the first to detect an influenza outbreak because they
perform diagnostic testing ordered by clinicians. Therefore, coordination between State public
Page 10 – Dr. Julie L. Gerberding, M.D., M.P.H.


health and clinical laboratory officials is critical to decrease the time needed to detect and report
a pandemic influenza outbreak.

If you have any questions about this memorandum report, please do not hesitate to contact me or
one of your staff may contact Claire Barnard, Director of External Affairs, at (202) 205-9523 or
through e-mail [Claire.Barnard@oig.hhs.gov]. To facilitate identification, please refer to
memorandum report number OEI-04-07-00670 in all correspondence.


cc: 	Rear Admiral W. Craig Vanderwagen, M.D.
    Assistant Secretary for Preparedness and Response
